JOHN F. CARROLL

ATTORNEY AT LAW
111 WEST OLMOS DRIVE
SAN ANTONIO, TEXAS 78212
TELEPHONE: (210) 829-7183

FACSIMILE: (210) 829-0734
jcarrollsatx@gmail.com

November 29, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

John Xavier Portillo v. United States of America
Petition for Writ of Certiorari

Dear Mr. Harris:
On behalf of the above-named Petitioner, please find enclosed the original Petition
for Writ of Certiorari with Appendix attached thereto and Motion for Leave to Proceed in
Forma Pauperis. A Certificate of Service and Word Count Certification are also enclosed.
Please let me know if you need anything further.
Very Truly Yours,
/s/ John F. Carroll
John F. Carroll
JFC
Enclosures
cc:

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
Elizabeth Berenguer
United States Attorney
Western District of Texas
601 N.W. Loop 410, Suite 600
San Antonio, Texas 78216

